APPENDIX A
Opinion, filed August 12, 2020

&28572)$33($/²6(&21'',67

Aug 12, 2020
DANIEL P. POTTER, Clerk

Filed 8/12/20

Richard Cardenas

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION EIGHT
THE PEOPLE,
Plaintiff and Respondent,

B293205
(Los Angeles County
Super. Ct. No. NA091042)

v.
KAMAU DAVIS,
Defendant and Appellant.
APPEAL from a judgment of the Superior Court of Los
Angeles County, Richard Romero, Judge. Affirmed.
Verna Wefald, under appointment by the Court of Appeal,
for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters, Chief
Assistant Attorney General, Susan Sullivan Pithey, Acting
Senior Assistant Attorney General, Steven D. Matthews and
Ryan M. Smith, Deputy Attorneys General, for Plaintiff and
Respondent.
_________________________

Deputy Clerk

INTRODUCTION
Kamau Alimau Davis was convicted, following a jury trial,
of one count of assault with a firearm (Pen. Code, § 245,
subd. (a)(2)) 1 and one count of assault with a semiautomatic
weapon (§ 245, subd. (b)). He was acquitted of one count of
murder (§ 187, subd. (a)) and one count of attempted murder
(§§ 187, 664). He waived his right to a jury trial on the
allegations that he had suffered a prior serious felony conviction
(§ 667, subd. (a)(1)) and a prior serious or violent conviction
within the meaning of the Three Strikes law (§§ 667, subds. (b)(i); 1170.12, subds. (a)-(d)), and had served a prior prison term.
The trial court found the allegations true and sentenced him to a
term of 36 years 4 months in state prison.
Appellant appeals from the judgment of conviction,
contending the record is inadequate to permit meaningful
appellate review of the voir dire proceedings. He also contends
the trial court committed reversible error in denying his five
Batson/Wheeler2 motions, arguing the prosecutor improperly
exercised her peremptory challenges to excuse jurors on racial
and gender grounds. Finally, appellant contends the trial court
abused its discretion in denying his motion to strike his prior
conviction.
We find the record adequate to permit meaningful review.
We affirm the judgment of conviction.

All further undesignated statutory references are to the
Penal Code.

1

Batson v. Kentucky (1986) 476 U.S. 79 (Batson); People v.
Wheeler (1978) 22 Cal.3d 258 (Wheeler).
2

2

BACKGROUND
Appellant was convicted of a December 24, 2011 assault
with a semiautomatic firearm in the home of Kim Ann Larsen in
San Pedro. Appellant had come to Larsen’s residence and was
inside the apartment for 10 minutes before she kicked him out.
Larsen had several other guests in her apartment living room as
well. She was in her bedroom wrapping presents when she heard
a gunshot inside her residence. She came out of her bedroom and
saw appellant pointing a large black gun toward the kitchen.
One of her guests was standing in the doorway of the kitchen.
Larsen pushed appellant out of her house. She then saw a bullet
hole in the freezer of her refrigerator and a bullet lodged in the
wall under the window.
Larsen did not call the police. About a year later, police
interviewed her about appellant in connection with their
investigation of the facts surrounding a December 2011 murder.
During the interview, she remembered and recounted the
incident in her apartment.
Appellant was also convicted of a December 24, 2011,
assault with a firearm. He used the weapon to force Garry Nance
to drive him around an area near the Harbor Freeway. Nance
was in the area to pick up a friend of his daughter. When he
arrived at the pick-up location, his daughter’s friend was not
present but appellant was. Appellant stated he could show
Nance where the friend was. Once inside Nance’s car, appellant
began directing Nance to drive around. When Nance demurred,
appellant pulled out a gun. Nance was able to stop and flee from
the car, running into a Circle K gas station. A Circle K employee
called the police. Appellant did not discharge the weapon.

3

DISCUSSION
I.
Meaningful Review of the Record Is Possible.
Appellant contends the record of voir dire is inadequate to
permit meaningful appellate review. He urges us to order the
Los Angeles County Superior Court to use a different system of
identifying jurors. Appellant believes the system of referring to
prospective jurors by their seat numbers rather than their juror
identification numbers (JID) during voir dire is confusing because
jurors change seats during that process. He claims the trial court
should use only the JID. We do not agree.
A defendant in a criminal case is entitled to an appellate
record adequate to permit “ ‘ “ ‘meaningful appellate review.’ ” ’ ”
(People v. Galland (2008) 45 Cal.4th 354, 370.) The denial of an
adequate record is a violation of the due process and equal
protections clauses of the U.S. Constitution. (Griffin v. Illinois
(1956) 351 U.S. 12, 16–20.)
Referring to prospective jurors alternately by their seat
numbers and their JIDs, as was done here, does not deprive a
defendant of a public trial and is not otherwise unconstitutional.
(See People v. Goodwin (1997) 59 Cal.App.4th 1084, 1092; People
v. Thomas (2012) 53 Cal.4th 771, 786–788.). To preserve a
Batson/Wheeler challenge, counsel may “need to protect the
record where the ethnicity of a name underlies the challenge.”
(Goodwin, at p. 1092, fn. 5.)
The trial court clearly explained and followed its system for
seating and identifying prospective jurors for voir dire. It is quite
straightforward to track each juror from the point of being seated
through the point of being excused, challenged or accepted onto
the jury.

4

Initially, the court called 18 prospective jurors from the
audience and seated them in seats numbered 1 through 18 for
questioning by the court, the prosecution, and the defense. As
the jurors were called from the audience, they were initially
identified by the last four numbers of their JID. Once seated, the
juror was referred to by his or her seat number. Although the
jurors’ full names are not reflected in the reporter’s transcript of
voir dire, the court and defense counsel specified each juror’s last
name when the ethnicity of the name was part of the challenge.
Court and counsel had a list associating the jurors’ names with
their JIDs.
Once seated in the jury box, only two movements were
possible for a prospective juror: (1) jurors in seats 13 through 18
could move to a seat in the 1 through 12 number range as it
became vacant due to challenges; and (2) jurors in seats
1 through 12 could leave the jury box. Thus, each prospective
juror could have at most two seat numbers, the first being
13 through 18 and the second 1 through 12.3 Voir dire of a
Some jurors might have only one seat number. The first
12 jurors seated by the court in seats 1 through 12 would have
only their initial seat number. Jurors seated in seats 13 through
18 were the subject of challenges for cause immediately after
questioning, and so some jurors in those seats might be excused
for cause without moving from their original seat.

3

Prospective jurors in the 13 through 18 section would not
normally be subject to peremptory challenges during most of voir
dire. The reason for this is clear: The prospective jurors in seats
1 through 12 when both sides accepted the panel would become
the actual jury. Any prospective jurors remaining in seats 13
through 18 would be at most potential alternate jurors. Thus,
until the very end of voir dire, there was no reason for either

5

prospective juror took place when the juror was newly seated,
and therefore used the juror’s initial seat number.
The movement of prospective jurors occurred in an orderly
and predictable manner. After questioning of newly seated
prospective jurors concluded, the court heard challenges for cause
at sidebar. If a prospective juror in seats 1 through 12 was
excused for cause, the prospective juror in seat 13 would be
moved to that empty seat. 4 Peremptory challenges then began.
These challenges were directed at prospective jurors in seats 1
through 12. 5 After each peremptory challenge, a prospective
juror from the 13 through 18 section would be moved to the
vacated seat in the 1 through 12 section. Prospective jurors were
moved in numerical order: Juror in seat 13, then juror in seat 14,
and so on. Once the juror in seat 18 was moved to the 1 though
12 section, one additional peremptory challenge was allowed, and
then the jury box was refilled.
The jury box was refilled by seating the first prospective
juror from the audience in the vacant seat in the 1 through 12
section and the next six prospective jurors in seats 13 through 18.
The newly seated prospective jurors were questioned, and then a
new round of challenges for cause and peremptory challenges
party to use a peremptory challenge on jurors in seats number 13
through 18.
If two jurors in seats 1 through 12 were excused, jurors
13 and 14 would be moved, and so on.

4

Occasionally, as a prospective juror started to move from
the 13 to 18 section to 1 through 12 section, one of the parties
would state its intent to “save a trip” and excuse the juror before
he or she formally changed seats.
5

6

took place. This cycle repeated until both sides accepted the panel
of prospective jurors in seats 1 through 12.
As we demonstrate below, it is not difficult to determine
the JID of a juror, and his or her seat number(s) if the juror’s seat
number at the time of the challenge is specified for the record.
Comments by defense counsel suggest she used a post-it note
system to keep track of jurors during voir dire, and there is no
reason appellate counsel could not work through the reporter’s
transcript using such a system. 6
A.

Although Defense Counsel Failed to Adequately
Identify One of the Three Jurors in the First Motion,
the Other Two Jurors Are Readily Identifiable.
The juror in seat 2 whose challenge was the prompt for the
defense’s first Batson/Wheeler motion was Juror 0064. This juror
was called from the audience directly into seat 2. She replaced
the just-seated Juror 8771, whom the parties had stipulated to

A common method of using post-it notes would involve
creating a chart with three rows of six seats, with the rows being
numbers 1 through 6, numbers 7 through 12 and numbers
13 through 18. When voir dire began, a post-it note would be
placed in each box with the JID and initial seat number of the
prospective juror. When a prospective juror was excused, his or
her post-it note would be removed from the numbered box, and
the appropriate post-it note for a prospective juror from the
13 through 18 section would be moved to the open box and
annotated with the new seat number. As new prospective jurors
were called from the audience, a fresh post-it note with the juror’s
JID and initial seat number would be placed in the appropriate
box.

6

7

excuse. Juror No. 2 (0064) was excused in the first round of
peremptory challenges which occurred after her seating.
Defense counsel stated: “This is the fifth exercise of a
peremptory challenge by the prosecution. Three of them have
been Hispanic, Hispanic females, to be precise. It’s without
cause. [¶] One of the females was the older lady that was seated
in seat No. 7 that was, I believe, 5732, her last four digits. The
first female was the one that came in late on that one day and
ended up in the jury box. She was the one that worked for the
county, and we had even talked about you can’t judge a book by
the cover because she seemed a little skeptical at first. But in
talking to her, she had like a really good county job and seemed
pretty up front.”
It is not possible to identify this unspecified “first” juror.
None of the jurors challenged by the prosecution fit this
description. The prosecution had used only five peremptories
when the defense brought its first Batson/Wheeler motion, and
defense counsel identified two of them, so only three possibilities
remained as the “first” juror: Juror No. 5 (4074); replacement
Juror No. 7 (7706), and second replacement Juror No. 5 (6794). 7
Juror No. 5 (4074) worked as an enrollment specialist for a
health plan who made sure that all the Medi-Cal enrollees in the
plan had active benefits and, when necessary, worked with the
County Department of Public Social Services. The only juror who
The original Juror No. 5 (4074) was removed by the
prosecution and replaced with Juror No. 15; this first
replacement Juror No. 5 was promptly excused by the defense
and replaced by Juror No. 18 (6794). This second replacement
Juror Number No. 5 (6794) was subsequently removed by the
prosecution.

7

8

clearly described a good county job in voir dire prior to the
defense motion was original Juror No. 14 (1703). She was moved
to seat 9 and then challenged by the defense.
Defense counsel’s reference to the juror arriving late does
not assist in the identification process. The record does not
indicate that any of the excused jurors were late but ended up on
the jury.
As we demonstrate throughout this opinion, it is not
difficult to put a juror together with his or her JID and initial and
subsequent seat numbers, even if all you know is the juror’s seat
number when challenged. Defense counsel did not provide this
simple and straightforward seat information number, however,
and so we cannot determine who the “first” juror was. We view
this simple omission as a hindrance on a minor point, given how
voir dire played out here, but it does not amount to a deprivation
of a meaningful record for review.
B.

The Juror in the Second Motion Is Readily
Identifiable.
The juror in seat 11 whose challenge was the prompt for
the defense’s second Batson/Wheeler motion was Juror 0374.
This juror was called from the audience and placed into seat 14.
Other jurors were also called from the audience to refill the
panel. Newly seated jurors were questioned.
A round of peremptory challenges began. Juror No. 14
(0374) was moved to seat 11, following a challenge of the seat’s
prior occupant. The trial court then called more jurors from the
audience to fill in seats. Again, the new set of jurors was
questioned.
A new round of challenges began. Juror No. 11 (0374) was
excused by the prosecutor.

9

C.
The Juror in the Third Motion Is Readily Identifiable.
The juror in seat 7 whose challenge was the prompt for the
defense’s third Batson/Wheeler motion was Juror 7444. This
juror was called from the audience and placed into seat 7. Other
jurors were also called from the audience to refill the panel, and
the newly seated jurors were questioned.
A round of peremptory challenges began. Juror No. 7
(7444) was not excused, and did not change seats because s/he
was in the 1 through 12 section. Following this round of
peremptory challenges, additional jurors were called from the
audience, and the newly seated jurors were questioned.
A new round of peremptory challenges began. Juror No. 7
(7444) was excused by the prosecution.
D.

The Juror in the Fourth Motion Is Readily
Identifiable.
The juror in seat 9 whose challenge was the prompt for the
defense’s fourth Batson/Wheeler motion was Juror 4199. This
juror was called from the audience and placed in seat 16.
Questioning of newly seated jurors followed.
A round of peremptory challenges began. Juror No. 16
(4199) was moved to fill in seat 9 following a challenge of the
seat’s prior occupant. Questioning of newly seated jurors
followed.
A new round of peremptory challenges began. Juror No. 9
(4199) was not excused and not moved because s/he was the 1
through 12 section. A new group of jurors was called from the
audience and the newly seated jurors were questioned.
Another round of peremptory challenges began. The
prosecutor indicated her intent to excuse Juror No. 9 (4199)
during the hearing on the third motion. The prosecutor did not

10

formally excuse Juror No. 9 (4199) until the next round of
peremptory challenges.
E.
The Juror in the Fifth Motion Is Readily Identifiable.
The juror in seat 8 whose challenge was the prompt for the
defense’s fifth Batson/Wheeler motion was Juror 5711. This
juror was called from the audience and placed in seat 18. Newly
seated jurors were questioned.
A new round of peremptory challenges began. Juror No. 18
(5711) was moved to fill in seat 8 following a defense challenge of
the seat’s prior occupant. The prosecutor immediately challenged
new Juror No. 8 (5711).
II.

The Trial Court Properly Denied Appellant’s
Batson/Wheeler Motions.
Appellant made a total of five Batson/Wheeler motions in
the trial court. In his first motion, he contended the prosecutor
had used three of her five peremptory challenges to remove
Hispanic women. In his second through fifth motions, appellant
made varying claims about the number of Hispanic, Black and
Asian jurors removed by the prosecutor. Based on the jurors
identified in the Batson/Wheeler motions, we estimate the
prosecutor excused five Hispanic jurors and one Black-Asian
juror out of her first ten peremptory challenges. Appellant can be
understood as arguing the prosecutor excused eight minority
jurors out of her first 10 peremptories. We consider the motions
serially, and find the trial court properly denied each motion.
A.
Applicable Law
“A prosecutor’s use of peremptory challenges to strike
prospective jurors on the basis of group bias—that is, bias against

11

‘members of an identifiable group distinguished on racial,
religious, ethnic, or similar grounds’—violates the right of a
criminal defendant to trial by a jury drawn from a representative
cross-section of the community under article I, section 16 of the
California Constitution. (Wheeler, supra, 22 Cal.3d at
pp. 276-277; People v. Griffin (2004) 33 Cal.4th 536, 553
[15 Cal.Rptr.3d 743, 93 P.3d 344].) Such a practice also violates
the defendant’s right to equal protection under the Fourteenth
Amendment to the United States Constitution. (Batson, supra,
476 U.S. at p. 88; see also People v. Cleveland (2004) 32 Cal.4th
704, 732 [11 Cal.Rptr.3d 236, 86 P.3d 302].)” (People v. Avila
(2006) 38 Cal.4th 491, 541.) The Constitution forbids striking
even a single prospective juror for a discriminatory purpose.
(Snyder v. Louisiana (2008) 552 U.S. 472, 478.)
It is presumed that the prosecutor exercised her
peremptory challenges in a constitutional manner, and appellant
bears the burden of rebutting that presumption. (People v.
Johnson (2015) 61 Cal.4th 734, 755.) In determining whether the
presumption of constitutionality is overcome, we apply the wellestablished three-step inquiry set forth in Batson. (People v.
Taylor (2009) 47 Cal.4th 850, 885.)
At step one, “the defendant must make out a prima facie
case ‘by showing that the totality of the relevant facts gives rise
to an inference of discriminatory purpose.’ ” (Johnson v.
California (2005) 545 U.S. 162, 168 (Johnson).) If the court finds
the defendant has made a prima facie case and inquiry proceeds
to the second stage, the burden shifts to the prosecution to
adequately explain the exclusion by providing a race-neutral
justification for the challenge. (Id. at p. 168.)

12

When the prosecutor states her reasons for the challenge
before the trial court rules on the prima facie case, “ ‘we infer an
“implied prima facie finding” of discrimination and proceed
directly to review of the ultimate question of purposeful
discrimination.’ [Citations.] Accordingly, ‘we must determine
whether the trial court correctly ruled that the defense did not
demonstrate discriminatory purpose at the third stage.’ ” (People
v. Hardy (2018) 5 Cal.5th 56, 76 (Hardy).) That was the situation
for the second through the fifth motions brought by appellant in
this case. In the first motion, the trial court did find there was no
prima facie showing. The court nevertheless invited the
prosecutor to explain the use of her peremptory challenge, and
appears to have “ruled on the ultimate question of intentional
discrimination,” so we will treat the question of whether the
defendant established a prima facie case as “moot.” (People v.
Lenix (2008) 44 Cal.4th 602, 613, fn. 8 (Lenix).)
The trial court’s determination of whether the defendant
has proved purposeful discrimination focuses on the subjective
genuineness of the prosecutor’s reason. (People v. Gutierrez
(2017) 2 Cal.5th 1150, 1158.) As such, it involves an evaluation
of the prosecutor’s credibility. (Snyder v. Louisiana, supra,
552 U.S. at p. 477.) “ ‘Credibility can be measured by, among
other factors, the prosecutor’s demeanor; by how reasonable, or
how improbable, the explanations are; and by whether the
proffered rationale has some basis in accepted trial strategy.’
[Citation.] In assessing credibility, the court draws upon its
contemporaneous observations of the voir dire. It may also rely
on the court’s own experiences as a lawyer and bench officer in
the community, and even the common practices of the advocate

13

and the office that employs him or her.” (Lenix, supra, 44 Cal.4th
at p. 613, fn. omitted.)
When a trial court rules that the defense did not
demonstrate discriminatory purpose at the third stage, we
“ ‘review the trial court’s determination with restraint, presume
the prosecutor has exercised the challenges in a constitutional
manner, and defer to the trial court’s ability to distinguish
genuine reasons from sham excuses.’ ” (Hardy, supra, 5 Cal.5th
at p. 76 (Hardy).)
“Reviewing the trial court’s determination with restraint
does not, however, mean abdication. ‘ “Although we generally
‘accord great deference to the trial court’s ruling that a particular
reason is genuine,’ we do so only when the trial court has made a
sincere and reasoned attempt to evaluate each stated reason as
applied to each challenged juror.” [Citation.] “When the
prosecutor’s stated reasons are both inherently plausible and
supported by the record, the trial court need not question the
prosecutor or make detailed findings. But when the prosecutor’s
stated reasons are either unsupported by the record, inherently
implausible, or both, more is required of the trial court than a
global finding that the reasons appear sufficient.” [Citation.]
However, we also have stated that a trial court is not required “to
make explicit and detailed findings for the record in every
instance in which the court determines to credit a prosecutor’s
demeanor-based reasons for exercising a peremptory
challenge.” ’ ” (Hardy, supra, 5 Cal.5th at pp. 76–77.)

14

B.

The Trial Court Did Not Improperly Speculate About
the Prosecutor’s Reasons for Exercising Peremptory
Challenges.
Appellant contends the trial court erred by “immediately”
putting itself in the prosecutor’s shoes and deciding if a
reasonable attorney would strike that juror, as part of the court’s
analysis of whether defense counsel had made a prima facie case
of discrimination. He contends that this sort of speculation is
exactly what the United States Supreme Court said trial judges
may not do in the first step of the analysis. (Johnson, supra,
545 U.S. at pp. 165, 173.)
The court’s finding of no prima facie showing in the first
motion was moot and the court made implied findings of a prima
facie case for the remaining four motions; the court proceeded to
elicit and rule on the prosecutor’s reasons for exercising the
subject peremptory challenges. We consider this claim only
because appellant has contended that it shows the court was
biased or lacked an understanding of the law. Appellant is
mistaken.
The California Supreme Court considered a similar claim
by a defendant who contended “that the trial court’s
determination was flawed because it speculated as to the
prosecutor’s reasons for challenging the juror when it referred to
the juror’s views on the criminal justice system and the
circumstance that her aunt had been convicted of murder.
[Defendant] relies . . . upon the Johnson decision, in which the
court stated: ‘The Batson framework is designed to produce
actual answers to suspicions and inferences that discrimination
may have infected the jury selection process. [Citation.] The
inherent uncertainty present in inquiries of discriminatory

15

purpose counsels against engaging in needless and imperfect
speculation when a direct answer can be obtained by asking a
simple question. See Paulino v. Castro, 371 F.3d 1083, 1090 ([9th
Cir.] 2004) (“[I]t does not matter that the prosecutor might have
had good reasons . . . [w]hat matters is the real reason they were
stricken” . . .).’ (Johnson, supra, 545 U.S. at p. 172 [162 L.Ed.2d
at pp. 140–141].) The quoted caution against speculation must be
read in light of the high court’s statement that a prima facie case
is established when the ‘defendant satisfies the requirements of
Batson’s first step by producing evidence sufficient to permit the
trial judge to draw an inference that discrimination has occurred.’
(Id. at p. 170[162 L.Ed.2d at pp. 140–141].) Once the trial court
concludes that the defendant has produced evidence raising an
inference of discrimination, the court should not speculate as to
the prosecutor’s reasons—it should inquire of the prosecutor, as
the high court directed. But there still is a first step to be taken
by the defendant, namely producing evidence from which the
trial court may infer ‘that discrimination has occurred.’ (Ibid.)
We have concluded that the evidence alluded to by defendant in
the trial court did not support such an inference.” (People v.
Cornwell (2005) 37 Cal.4th 50, 73–74 disapproved on another
ground by People v. Doolin (2009) 45 Cal.4th 390, 421, fn. 22.)
Here, the trial court did precisely what is permitted by
Cornwell: it looked at the evidence to determine whether it was
sufficient to permit the court to infer discrimination had
occurred. As our Supreme Court has explained, a defendant may
make a prima facie showing in a number of ways. “ ‘[T]he party
may show that his opponent has struck most or all of the
members of the identified group from the venire, or has used a
disproportionate number of his peremptories against the group.

16

He may also demonstrate that the jurors in question share only
this one characteristic—their membership in the group—and that
in all other respects they are as heterogeneous as the community
as a whole.’ ” (People v. Reynoso (2003) 31 Cal.4th 903, 914.)
Here, as we discuss below, there were disagreements about the
identify and number of jurors who qualified as members of a
minority, and it appears the trial court elected to focus on the
differentiating characteristics of the challenged jurors. Even if
we were to assume this was not the proper focus, and the trial
court should have considered only numbers in making a prima
facie case determination, there would be no prejudice to
defendant because we have implied a finding of a prima facie case
as a matter of law.
C.
First Motion
After the prosecutor excused Juror No. 2 (0064), defense
counsel made her first Batson/Wheeler motion. Defense counsel
characterized Juror No. 2 (0064) as the third Hispanic female to
be excused by the prosecutor out of five challenges. 8 Counsel
identified the first female to be excused as the one who came in
late but had “a really good county job and seemed pretty up
front.” As we have explained, none of the prospective jurors
excused by the prosecution matched this description. The second
female was described as “the older lady that was seated in seat
no. 7 that was . . . 5732.” Thus, defense counsel had effectively
identified only two Hispanic females excused by the prosecution.

As we discuss above, the description of one of the three
jurors did not match any of the prospective jurors challenged by
the prosecutor.

8

17

Defense counsel argued as to Juror No. 2 (0064): “I think if
anybody would be a great juror, it is her because she has
experienced both . . .worlds. She has dealt with being victimized
of a crime, witnessed a crime, and having her ex-husband
arrested for murder.” 9
In response, the trial court indicated that a reasonable
prosecutor might have stricken Juror No. 2 (0064) on the basis of
her negative experience with police when her ex-husband was
arrested. The court stated: “This is not a prima facie showing but
if the D.A. wants to explain your peremptory, you may do so.” 10
The prosecutor first expressed her belief that Juror No. 2
(0064) was not Hispanic, but rather Italian, based on her last
name. The prosecutor explained that “starting with what the
court just said, having a gun pointed in her face, she currently
has two close relatives that are going through the system now,
one of which is charged with the exact same crime as this
defendant. I think that in and of itself is sufficient, as well.”

The record does not show that Juror No. 2 (0064) was the
victim of a crime; she described herself as a victim of her exhusband’s crime because of the way law enforcement officers
treated her when her ex-husband was arrested. She may have
witnessed her ex-husband’s crime.
9

Because the trial court made a finding of no prima facie
case, we cannot make the implied finding of no prima facie case
suggested by the Court in Hardy. Nevertheless, since the court
invited the prosecutor to explain the use of his peremptory
challenge, and appears to have “ruled on the ultimate question of
intentional discrimination,” we will treat the question of whether
the defendant established a prima facie case as “moot.” (Lenix,
supra, 44 Cal.4th at p. 613, fn. 8.)

10

18

A juror’s negative experience with the police, or a close
relative’s negative experience with police, is a neutral reason for
excusing that juror. (People v. Panah (2005) 35 Cal.4th 395, 442.)
“ ‘[A] prosecutor may reasonably surmise that a close relative’s
adversary contact with the criminal justice system might make a
prospective juror unsympathetic to the prosecution.’ ” (People v.
Jones (2013) 57 Cal.4th 899, 920.) Similarly, a prospective juror’s
belief that the criminal justice system had treated a relative
unfairly is a valid basis for a peremptory challenge. (People v.
Melendez (2016) 2 Cal.5th 1, 18.)
The record shows that Juror No. 2 (0064) described a very
traumatic encounter with police in connection with her exhusband’s arrest, so traumatic that she described herself as a
victim. She provided this account after the prosecutor asked her
if she had any doubts about the system. She replied, “I have my
doubts, but for the most part, it’s been pretty good.” She then
elaborated that “when they came for the search warrant to arrest
[my ex-husband], I had two of my kids at the time. They were
very young, three and four. So they were in one room, and I was
asleep when he was going to work when they came with the
search warrant. They arrested him outside. So when they came
into the house, I know they were doing their job, but I woke up to
a gun in my face. I didn’t appreciate that because they also did
the same to my kids.”
The record also shows, as the prosecutor argued, Juror No.
2 (0064) had two relatives going through the system. Her son
was facing a charge of misdemeanor shoplifting which the juror
believed was unjustified; she explained that her son and a friend
drove to the mall, but her son, who was the driver, did not know
his friend had stolen things in the mall. She also stated that a

19

cousin was charged with murder after the victim of an assault
died in the hospital. She described the crime: “[T]hey were at a
bar and some other guys got in a fight outside, and he went out
there.”
After the prosecutor provided her explanation, the court
asked defense counsel why she believed Juror No. 2 (0064) was
Hispanic. Defense counsel stated she believed it was a Hispanic
name but she also based her determination of ethnicity on
appearance. The court stated, “Based on the objective factors, I
would say it’s undetermined what her ethnic background is.
That’s an Italian last name.” The court also noted that what was
important was what ethnicity the juror appeared to be.
The court denied the motion without questioning the
prosecutor or making detailed findings.
“ ‘ “When the prosecutor’s stated reasons are both
inherently plausible and supported by the record, the trial court
need not question the prosecutor or make detailed findings.” ’ ”
(Hardy, supra, 5 Cal.5th at p. 76.) “ ‘Some neutral reasons for a
challenge are sufficiently self-evident, if honestly held, such that
they require little additional explication.’ ” (Id. at p. 77.) That
was the situation here. Juror No. 2 had been traumatized by her
experience with police, believed that her son had been charged
with a crime he did not commit, and had a relative who was
facing the same charge as appellant. It is self-evident that a
prosecutor would not want such a juror on the panel. We defer to
the trial court’s ruling, but even if we did not, the record provides
no basis to doubt the credibility of the prosecutor’s explanation.
D.
Second Motion
Defense counsel made her second Batson/Wheeler motion
after the prosecutor excused Juror No. 11 (0374). She contended

20

that this was the fourth Hispanic female to be excused by the
prosecutor out of six peremptory challenges. Counsel first
claimed that the juror’s ex-husband was a sheriff’s deputy and
that would be favorable to the prosecutor, then said she had
grabbed the wrong post-it note and did not remember anything
that would cause the prosecutor to strike the juror.
The court agreed the juror was a Hispanic female and
stated “nothing stood out [about her] that I can recall.” The
court said “without making a finding yet, if you want to explain
your reasons.”
The prosecutor explained she excused Juror No. 11 (0374)
because “she indicated that she would absolutely require more
than [the testimony of] a single witness. And given the
circumstance of some of the issues in this case, there are just onewitness-type situations where we have a single eyewitness. [¶]
Additionally, she was also a part of a hung jury.”
A juror’s hesitation in applying the single-witness rule is a
nondiscriminatory reason for excusal. (People v. Bryant (2019)
40 Cal.App.5th 525, 540.) “[M]any cases have held service on a
hung jury to be an appropriate, race-neutral reason for excusing
a juror.” (People v. Winbush (2017) 2 Cal.5th 402, 438.)
The court stated it recalled the juror’s answer to the single
witness question and was surprised there was not any follow up
to it. The court asked defense counsel for a response. She
explained she did not have an opportunity to follow up. She
claimed the prosecutor’s question to Juror No. 11 (0374) was
“very leading and confusing and led her in the wrong direction”
and “it was never asked of her, ‘If you thought that [a] single
witness was completely credible and you believed their
testimony, could you base the case on it?” However, the record

21

shows the prosecutor in fact asked Juror No. 11 (0374) that
precise question.
After some preliminary questioning on the single-witness
topic, 11 the prosecutor gave Juror No. 11 (0374), who was then in
seat 14, a hypothetical question: “Well, the instruction that I
talked to Juror No. 7 about, the testimony of a single witness who
meets all of the elements that are required, and you believe that
witness, you know, they’re pretty good. You know, they sound
credible. They have no reason to lie. You believe them. They
meet the elements. [¶] Would you be able to base a verdict of
guilt on the testimony of that single witness?” The juror replied:
“On one single witness?” The prosecutor stayed: “Uh huh.” The
juror said: “No.”
It was undisputed that Juror No. 11 (0374) stated that she
had been part of a hung jury.
The court stated: “A reasonable prosecutor would excuse a
juror, in my opinion, nearly automatically for being on a hung
jury without any further inquiry. [¶] So the motion is denied.”
Both of the prosecutor’s stated reasons were inherently
plausible and supported by the record, and so the trial court was
not required to question the prosecutor or make detailed findings.
(See Hardy, supra, 5 Cal.5th at p. 76.) The trial court properly
relied “on the court’s own experiences as a lawyer and bench
officer in the community, and even the common practices of the
The prosecutor began by asking Juror No. 11 (0374), then
in seat 14, if a crime occurred in the courtroom, with 50 people
present, how many of them would she expect the prosecutor to
call as witnesses. Juror No. 11 (0374) replied: “At least half of
them.” The prosecutor responded: “Really?” Juror No. 11 (0374)
replied: “At least you need more than just one.”

11

22

advocate and the office that employs him or her” to evaluate the
prosecutor’s credibility. (Lenix, supra, 44 Cal.4th at p. 613.)
Accordingly, we defer to the trial court’s ruling.
E.
Third Motion
Defense counsel made her third Batson/Wheeler motion
after the prosecutor excused Juror No. 7 (7444). The court
described the juror as Asian. Defense counsel claimed the juror
was Black, with possibly some “Asian mix.” The prosecutor
pointed out that the juror’s last name was Asian, and stated the
juror seemed to be mixed race.
The court stated Juror No. 7 (7444) had “a flat affect” and
had never held a job and a reasonable prosecutor would excuse
him for those two reasons. The court asked defense counsel why
she thought the challenge was based on race or ethnicity.
Defense counsel responded the prosecutor had used seven
of her eight peremptories on jurors who were Black or Hispanic
and there was only one Black person left inside the jury box and
no Hispanics. The court pointed to Juror No. 9 as being Hispanic,
and agreed with the prosecutor that Jurors Nos. 2 and 8 were
Hispanic.
Defense counsel also stated that Juror No. 7 (7444) “said
nothing that would in any way raise a concern for the prosecution
in this case. He is not a victim of a crime. He’s not associated
with people that have been to jail.” She disputed that he had a
flat affect, saying “he is just a quieter person. You want different
personalities on the jury.” The court replied: “Without making a
finding of a prima facie case, if the D.A. wishes to explain her
reasons, go ahead.”

23

The prosecutor explained she excused Juror No. 7 (7444)
because he was “somewhat slow” and more significantly was in
his mid-30’s and had never held a paying job.
Excluding a prospective juror “on the basis of his limited
life experience” particularly when combined with a “concern
about [the prospective juror’s] intellectual capacity” constitutes a
race-neutral explanation for a peremptory challenge. (People v.
DeHoyos (2013) 57 Cal.4th 79, 108.)
The record shows Juror No. 7 (7444) did in fact tell the
court he had never held a paying job. Defense counsel herself
acknowledged that the day before she “did make the comment to
the prosecution afterwards, like, is he slow?” She also expressed
her opinion that Juror No. 7 (7444) was acting differently:
“[T]oday he is speaking up and very intelligent and very on point
and gave, I think, some of the best answers if you’re looking for a
midline fair juror.” The court replied: “The showing hasn’t been
established here. The motion is denied.”
“ ‘ “When the prosecutor’s stated reasons are both
inherently plausible and supported by the record, the trial court
need not question the prosecutor or make detailed findings.” ’ ”
(Hardy, supra, 5 Cal.5th at p. 76.) That was the situation here.
The prosecution’s explanation is inherently plausible. This
was a complicated case, and a juror with little life experience
whose responses raised questions about his intellectual capacity
might well have difficulty following the prosecution’s case. It is,
of course, the prosecution which has the burden of proof. Defense
counsel did not disagree that a “slow” juror would present
difficulties for a prosecutor or that Juror No. 7 (7444) appeared
“slow” during the first day of questioning. Defense counsel’s
argument that Juror No. 7 (7444) was “speaking up and very

24

intelligent and very on point” during the second day of
questioning is not supported by the record. 12 We defer to the trial
court’s ruling.
F.
Fourth Motion
At the end of the third motion, the prosecutor stated her
intent to next excuse Juror No. 9 (4199), a Hispanic male. She
explained that she excused him because “[h]e flat out said he does
not want to be here and is completely disinterested in the
proceedings as we’ve been going along.”
Defense counsel complained the prosecutor had not excused
a juror who had been reading a book or a juror who was reading
notes. The prosecutor replied she had excused Juror No. 5 who
was reading his notes and had not “yet” gotten to Juror No. 4 who
was reading a book. The court agreed the prosecutor had excused
Juror No. 5 who was reading.
The court asked defense counsel for the basis of her motion,
and she replied the prosecutor had used seven out of her nine
challenges on minorities, and five of them were Hispanic. She
also contended “everybody has said he doesn’t want to be here.
That’s been my first question to everybody, and nobody wants to

To give just one example, the prosecutor told Juror No. 7
(7444): “A lot of times we kind of deal in gray areas.” She then
asked Juror No. 7 (7444) how he would respond if a witness’s
description differed slightly from a photograph or if two witnesses
remembered the same event a little bit differently: “Would you
be able to kind of work through it . . . or would you automatically
throw up your hands and say, ‘I can’t decide because neither of
them is really right. One says one thing, one says another.?’ ”
Juror No. 7 (7444) replied, “I wouldn’t be able to decide that.”

12

25

be here. . . . He hasn’t done anything, hasn’t thrown any fits,
hasn’t done anything to get himself kicked off.”
The prosecutor elaborated that Juror No. 9 (4199) was the
juror who said he had the worst cold of his life “and he didn’t go
to work the first two days of this week. Then he went to jury
duty, and because of that, he is now behind on his project that he
is currently working on. He is a software developer and followed
that up with a flat-out, ‘I don’t want to be here.’ He also said his
mind would be on those other things that are going on rather
than being here in the courtroom.” The court denied the motion.
A juror’s express or implied desire not to serve on a jury is
a neutral reason to excuse the juror. (See People v. Jordan (2006)
146 Cal.App.4th 232, 254–255.)
Defense counsel stated: “I would make the argument if
there is a showing for two or three different people where nobody
wants to be here, everyone said they don’t want to be here. So
people are sick. We heard coughs all throughout the last three
days. There is no question about that. Yet if we pick and choose
that the person that we’re going to excuse is the Black juror or
the Hispanic juror over the White juror that had the same issues
. . . .” She argued Juror No. 9 (4199) “is in no different of a
position” than other jurors who had not been excused.
The trial court replied: “Of course, the D.A. is not excusing
other jurors for the reason she gives for excusing that minority
juror. That’s a reason to suspect that the use of the peremptory
against the challenged juror may be race-based, but I don’t see
that here.” This statement is awkwardly phrased and
ambiguous. We will assume for the sake of argument the trial
court agreed the prosecutor had not excused white jurors for the
reason she gave for excusing Juror No. 9 (4199), but that the

26

court nevertheless found the prosecutor did not excused Juror No.
9 (4199) based on race. Accordingly, we consider the comparisons
argued by defense counsel.
“ ‘[E]vidence of comparative juror analysis must be
considered in the trial court and even for the first time on appeal
if relied upon by the defendant and the record is adequate to
permit the urged comparisons.’ ” (Gutierrez, supra, 2 Cal.5th at
p. 1174.) “[C]omparative analysis is subject to inherent
limitations, especially when performed for the first time on
appeal.” (Ibid.) We are required to review any panelist
comparison that is made by the trial court. (Ibid.)
One of the limitations of comparative analysis surfaces
when, as here the prosecutor has peremptory challenges
remaining and has not yet accepted the panel. Jury selection is
not over, and the prosecutor might well excuse similarly situated
white jurors in the future. The prosecutor had already excused
one uninterested white juror and more might follow.
Although defense counsel asserted everyone had heard
coughing over the three days of voir dire, the trial court
remembered Juror No. 9 (4199) as a juror who stood out for being
ill, stating “He has been coughing a lot. [He was] coughing so
hard this morning, he had to pull his t-shirt out and cough into
the t-shirt.” Health was not a topic of inquiry on voir dire, but we
can say Juror No. 9 (4199) volunteered he had the worst cold of
his life and there are no comparable statements from other
jurors. Thus, Juror No. 9 (4199)’s claim of ill health does
differentiate him from other unidentified coughing jurors.
Although defense counsel argued “nobody” wanted to be
there, she herself had earlier recognized that Juror No. 9 (4199)
stood out as one of two jurors who really did not want to be there.

27

After voir dire of a group of newly seated jurors concluded,
during the hearing on challenges for cause, defense counsel
stated “I would offer a stipulation as to 16 [4199] and 18 [6794].
They don’t have cause. There is no cause for them. They’re just
being not nice because they want to get out of here really bad for
work, and I don’t think that they would be good jurors for either
side.” 13 The court refused to accept the offer of a stipulation.
Peremptory challenges followed, and Juror 4199 was moved
to seat 9 and Juror 6794 to seat 5. The prosecutor exercised a
peremptory challenge against Juror No. 5 (6794) in the next
round of challenges. In the following round of challenges, the
prosecutor indicated her intent to exercise the subject peremptory
against Juror No. 9 (4199).
Assuming without deciding that the trial court’s ambiguous
ruling on this motion is not entitled to deference, “we are able to
apply the high court’s standard articulated in Johnson v.

Defense counsel’s impression is fully supported by the
record. Juror No. 9 (4199) was among the jurors who raised his
hand when defense counsel asked, “Who really doesn’t want to be
here?” He also made two strong but indirect statements
indicating he did not want to be there. When the court asked if
any juror had any reason they could not be fair, Juror No. 9
(4199) replied in part: “I’m getting over the worst cold of my adult
life, and things are happening at work right now that, yes, I can
be on a jury and I can be impartial, but to be brutally honest, my
project is always going to be in the back of my mind.” Juror No. 9
(4199) also told defense counsel: “[A]ctually, we’re behind
deadline, and I was actually sick for the first two days of this
week, and then Wednesday got called in. . . . So as I said, I can
be impartial. It’s just now there are things in the back of my
mind that are adding to it.”

13

28

California, supra, 545 U.S. 162, and ‘resolve the legal question
whether the record supports an inference that the prosecutor
excused a juror on the basis of race.’ ” (People v. Avila, supra,
38 Cal.4th at p. 554.)
Both of the prosecutor’s reasons are inherently plausible.
The record and defense counsel’s own comments support the
prosecutor’s claim that Juror No. 9 (4199) stood out from other
jurors with the strength of his desire not to serve. The record and
the trial court’s observation and description of Juror No. 9
(4199)’s coughing support the prosecutor’s claim that the juror
stood out from other jurors by the severity of his cold. There is no
basis in the record to infer the prosecutor excused Juror No. 9
(4199) on the basis of race.
G.
Fifth Motion
Defense counsel made her fifth and final Batson/Wheeler
motion after the prosecutor excused Juror No. 8 (5711). The
court noted it initially believed the juror was Asian, but as to
“[e]thnic background, I have no idea.” Defense counsel replied
that the juror was Hispanic. The prosecutor disagreed, stating
the juror appeared to be of Asian or mixed Asian descent,
possibly Hawaiian. Defense counsel argued that the juror’s last
name was Hispanic. The court stated the juror did not look
Hispanic.
Defense counsel argued that the challenge was minority
based and there had been seven out of 10 such challenges. She
stated: “Her brother-in-law was a sheriff deputy. . . . [S]he is a
medical assistant. . . . [B]asically everything a prosecutor would
dream of in a juror. . . . I was saying her brother-in-law was a
sheriff deputy. Now he trains some sort of police in Alabama.
Her dad was a victim of a robbery. Her family was a victim of a

29

break-in that her father apprehended the person. Like, she has
not said one thing that would be something that a prosecutor
would be wary of.”
The court stated: “I don’t see anything myself, but if I were
a prosecutor and I think a reasonable prosecutor would excuse
her automatically for her . . . personality. She seems to be a weak
individual . . . . She is very soft-spoken. We had to be telling her
many times to speak up. She seems like a very, very timid
person.” The court added: “I’m not finding a prima facie case, but
if [the prosecutor] want[s] to explain [her] reasons.”
The prosecutor explained she had excused Juror No. 8
(5711) because she was “soft-spoken and timid” and because “she
was a member of a hung jury.” The prosecutor explained that
although Juror No. 8 (5711) initially said it was just one juror,
when questioned by defense counsel she “seemed to indicate
there was a wider split than just 11 to 1, which led me to believe
it was a regular hung jury as opposed to just one person.” 14
Defense counsel contended in the trial court and contends
again on appeal that Juror No. 8 (5711) was describing a jury
divided 11 to 1. “[M]any cases have held service on a hung jury
to be an appropriate, race-neutral reason for excusing a juror.”
(People v. Winbush, supra, 2 Cal.5th at p. 438.) Appellant has
not cited any authority holding that it is unreasonable to excuse a
juror if the jury hung 11 to 1, as opposed to 10 to 2 or some other
split. Further, the prosecutor’s understanding of Juror No. 8’s
The trial court essentially agreed with the prosecutor’s
understanding, stating: “My sense was that there was a split, and
within one group there was a juror who could not change their
mind so they decided, ‘we can’t get a unanimous decision,’ just
because of that one person.”
14

30

statements as showing something other than an 11 to 1 split is a
reasonable one.
Defense counsel asked Juror No. 8 (5711): “Was it just one
juror that had been held up?” The juror replied: “No. Well, he
was the one that made up—he was more, I guess, the person in
control. He decided that he couldn’t—wouldn’t be able to come to
an agreement as a whole group. So it was senseless—decided
that we deliberate no further.” Defense counsel attempted to
clarify: “Amongst the twelve, was it eleven were in agreement
and one person had a different opinion? Or was it split
differently, or what?” Juror No. 8 (5711) replied: “Yeah. I mean,
I don’t quite remember how may were opposed, and, like—it was,
like, eight years ago, but I just remember one being very
adamant.”
Appellant also contends the prosecutor’s claim that Juror
No. 8 (5711) was soft-spoken and that the court reporter had to
tell her to speak up at least five times was contradicted by the
record, which shows only that the court asked Juror No. 8 (5711)
to speak up one time and contains no such directions from the
court reporter. Defense counsel did not raise this claim in the
trial court. There, she did not dispute the prosecutor’s claim that
the court reporter asked Juror No. 8 (5711) to speak up at least
five times, or the trial court’s statement that “[w]e had to be
telling her many times to speak up.”
It is not clear whether the court reporter should or would
have included in the transcript her own requests on a nonsubstantive topic such as voice volume. The record amply
supports the prosecutor’s contention that Juror No. 8 (5711) was
soft-spoken. It show that Juror No. 8 (5711) gave six answers
which did not use audible words, shaking her head on two

31

occasions and saying “uh huh” on four occasions. The second
time Juror No. 8 (5711) gave a response reported as “uh huh” the
court clarified on the record: “She indicates yes.” On another
occasion, when Juror No. 8 (5711) gave a verbal answer, the trial
court repeated the last word of the reply questioningly,
suggesting the court could not hear that word.
Both of the prosecutor’s stated reasons were inherently
plausible and supported by the record, and so the trial court was
not required to question the prosecutor or make detailed findings.
(See Hardy, supra, 5 Cal.5th at p. 76.) We defer to the court’s
ruling.
III.

The Trial Court Did Not Abuse Its Discretion in
Denying Appellant’s Request to Strike the Prior
Conviction Findings.
Appellant contends the trial court abused its discretion
when it denied his motion to strike his prior conviction.
Appellant argues the court wrongly discounted his “extraordinary
rehabilitation” during his lengthy detention before trial.
“ ‘[T]he Three Strikes initiative, as well as the legislative
act embodying its terms, was intended to restrict courts’
discretion in sentencing repeat offenders.’ ” (People v. Carmony
(2004) 33 Cal.4th 367, 377 (Carmony).) Our Supreme Court has
established stringent standards that a court must follow in
determining whether an exception to that sentencing scheme
should be made, and the defendant treated as though he fell
outside the scheme. (Ibid.) “ ‘[I]n ruling whether to strike or
vacate a prior serious and/or violent felony conviction allegation
or finding under the Three Strikes law, on its own motion, “in
furtherance of justice” pursuant to Penal Code section 1385(a), or
in reviewing such a ruling, the court in question must consider

32

whether, in light of the nature and circumstances of his present
felonies and prior serious and/or violent felony convictions, and
the particulars of his background, character, and prospects, the
defendant may be deemed outside the scheme’s spirit, in whole or
in part, and hence should be treated as though he had not
previously been convicted of one or more serious and/or violent
felonies.’ ” (Ibid.)
The “law creates a strong presumption that any sentence
that conforms to these sentencing norms is both rational and
proper.” (Carmony, supra, 33 Cal.4th at p. 378.) Thus, a trial
court will only abuse its discretion in failing to strike a prior
felony conviction allegation in limited circumstances. “ ‘[T]he
sentencing norms [established by the Three Strikes law may, as a
matter of law,] produce[ ] an “arbitrary, capricious or patently
absurd” result’ under the specific facts of a particular case.”
(Ibid.) “ ‘[I]t is not enough to show that reasonable people might
disagree about whether to strike one or more’ prior conviction
allegations.” (Ibid.)
“ ‘[W]here the record demonstrates that the trial court
balanced the relevant facts and reached an impartial decision in
conformity with the spirit of the law, we shall affirm the trial
court’s ruling, even if we might have ruled differently in the first
instance’ [citation]. Because the circumstances must be
‘extraordinary . . . by which a career criminal can be deemed to
fall outside the spirit of the very scheme within which he
squarely falls once he commits a strike as part of a long and
continuous criminal record, the continuation of which the law
was meant to attack’ [citation], the circumstances where no
reasonable people could disagree that the criminal falls outside
the spirit of the three strikes scheme must be even more

33

extraordinary. Of course, in such an extraordinary case—where
the relevant factors . . . manifestly support the striking of a prior
conviction and no reasonable minds could differ—the failure to
strike would constitute an abuse of discretion.” (Carmony, supra,
33 Cal.4th at p. 378.)
As appellant acknowledges, the trial court was aware of his
rehabilitation in jail. The court recognized that appellant’s
conduct in jail was “deserving of recognition. He has taken
advantage of jail classes and programs dealing with substance
abuse and anger management, factors that played a part in the
commission of these offenses.” In listing circumstances in
mitigation, he noted that appellant has “undergone a traumatic
upbringing in his childhood.” The court also stated that
appellant had “taken advantage of programs to turn his life
around, and because of his participation in those programs, he is
less likely—I am not saying he wouldn’t, but clearly less likely to
commit offenses again . . . based on substance abuse or anger
issues.” The court recognized that appellant had “family
community support, has work available to him once he is released
from custody” and his family needs him.
The court concluded: “I note that the argument is that
[appellant] today before the court is a different person than who
committed these offenses. However, his conduct in jail, which is
very laudatory, does not erase his prior conduct.” Although the
trial court’s use of the word “erase” was perhaps not well chosen,
we understand the court’s statement, taken in context, to mean
that appellant’s conduct in jail did not outweigh the seriousness
of his criminal conduct.
The record shows the trial court considered the relevant
factors described in Carmony: “ ‘the nature and circumstances of

34

his present felonies and prior serious and/or violent felony
convictions, and the particulars of his background, character, and
prospects.’ ” (Carmony, supra, 33 Cal.4th at p. 377.) Thus, the
trial court’s decision is presumed to be rational and proper.
(Id. at pp. 377–378.)
Appellant’s argument is simply that the trial court
accorded less weight to his rehabilitation and more weight to his
criminal conduct than appellant believes is warranted. He
repeats his defense counsel’s argument that his discharge of the
gun in Larsen’s apartment was unintentional and no one was
hurt and that he did not fire his gun at Nance or take anything
from him. The trial court noted that appellant’s convictions
involved two separate and unrelated offenses. In one offense,
appellant premeditated his crime involving Nance, luring him
into allowing appellant into the car. Although appellant did not
discharge his gun, his display of that gun to force Nance to drive
him around “terrified” Nance, who “was fearful for his safety and
his life.” In the other offense, appellant returned to a residence
after being kicked out and actually discharged his gun. This
discharge occurred inside a residence where a number of people
were present. The court pointed out this circumstance carried
with it the possibility of serious injury or death if someone in the
confines of the residence has been struck by a bullet. He also
noted that a residence is a location where people normally expect
to be safe.
There is little discussion by anyone of appellant’s prior
conviction, beyond the fact that it is for making criminal threats
in violation of section 422, did not involve the use of a firearm,
and was incurred in 2006.

35

We find the trial court’s characterization of the seriousness
of appellant’s offenses accurate. A reasonable person could agree
with the trial court that the seriousness of those offenses
outweighed appellant’s decision to take advantage of programs
and deal with his substance abuse and anger management issues
in jail. Thus, we cannot find that the trial court abused its
discretion in denying appellant’s request to strike his prior
conviction.
DISPOSITION
The judgment of conviction is affirmed.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS

STRATTON, J.
We concur:

BIGELOW, P. J.

GRIMES, J.

36

APPENDIX B
Order denying rehearing, filed August 31, 2020

&28572)$33($/²6(&21'',67

Aug 31, 2020

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DANIEL P. POTTER, Clerk
DIVISION 8

Cmortelliti

THE PEOPLE,
Plaintiff and Respondent,
v.
KAMAU ALIMAU DAVIS,
Defendant and Appellant.
B293205
Los Angeles County Super. Ct. No. NA091042

THE COURT:
Petition for rehearing is denied.

_____________________________________________________________________________
___
__________________ 
__
BIGELOW, P. J.

GRIMES, J.

STRATTON, J.

Deputy Clerk

APPENDIX C
Order denying review, filed November 18, 2020

